No. 19-307

 

IN THE

Supreme Court of the Anited States

STUART A. MCKEEVER,

Petitioner,
Vv.
WILLIAM P. BARR,
ATTORNEY GENERAL,
Respondent.
CERTIFICATE OF SERVICE

I, Ashwin P. Phatak, do hereby declare that on October 7, 2019, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Constitutional Accountability Center as Amicus Curiae in Support of Petitioner on

counsel for each party to the above proceeding as follows:

Roman Martinez V Noel J. Francisco

Latham & Watkins, LLP Solicitor General

555 Eleventh Street, NW United States Department of Justice
Suite 1000 950 Pennsylvania Avenue, NW
Washington, DC 20004 Washington, DC 20530-0001
roman.martinez@lw.com SupremeCtBriefs@USDOJ.gov
202-637-3377 202-514-2217

Counsel of Record for Petitioner Counsel of Record for Respondent

I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 7, 2019.

LMaleusu. ata
Ashwin P. Phatak
Counsel for Amicus Curiae
